<html>
<title> - THE FUTURE OF U.S. FUSION ENERGY RESEARCH</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                             THE FUTURE OF 
                      U.S. FUSION ENERGY RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2018

                               __________

                           Serial No. 115-50

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov

              
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-937PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>              
              
              
              
              
              
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
JIM BRIDENSTINE, Oklahoma            JERRY McNERNEY, California
STEPHEN KNIGHT, California, Vice     PAUL TONKO, New York
    Chair                            BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
NEAL P. DUNN, Florida                EDDIE BERNICE JOHNSON, Texas
RALPH NORMAN, South Carolina
LAMAR S. SMITH, Texas
                            
                            C O N T E N T S

                             March 6, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     4
    Written Statement............................................     6

Statement by Representative Zoe Lofgren, Subcommittee on Energy, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives
    Written Statement............................................    16

                               Witnesses:

Dr. Bernard Bigot, Director-General, ITER Organization
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. James W. Van Dam, Acting Associate Director, Fusion Energy 
  Sciences, Office of Science, Department of Energy
    Oral Statement...............................................    38
    Written Statement............................................    40

Dr. Mickey Wade, Director of Advanced Fusion Systems, Magnetic 
  Fusion Energy Division, General Atomics
    Oral Statement...............................................    48
    Written Statement............................................    50

Dr. Mark Herrmann, Director, National Ignition Facility, Lawrence 
  Livermore National Laboratory
    Oral Statement...............................................    58
    Written Statement............................................    61

Discussion.......................................................    70


             Appendix I: Answers to Post-Hearing Questions

Dr. Mark Herrmann, Director, National Ignition Facility, Lawrence 
  Livermore National Laboratory..................................    90

 
               THE FUTURE OF U.S. FUSION ENERGY RESEARCH

                              ----------                              


                         TUESDAY, MARCH 6, 2018

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. The Subcommittee on Energy will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``The Future of U.S. 
Fusion Energy Research.'' I recognize myself for five minutes 
for an opening statement.
    Today, we will hear from a panel of experts on the status 
of U.S. fusion energy research and discuss what we can do as a 
nation to advance this critical area of discovery science. The 
goal of fusion research is to create a star here on Earth and 
control it to the point that we can convert its immense heat 
into electricity. Easy, right? In the center of stars like our 
sun, extreme temperatures, pressures, and gravitational 
conditions create a unique natural environment for fusion to 
occur. On Earth, scientists push the boundaries of experimental 
physics in a number of ways to duplicate these reactions, with 
the hopes of eventually generating fusion energy as power we 
can use in everyday activities.
    The potential benefits to society from a fusion reactor are 
beyond calculation: the fuel is abundant and widely accessible, 
the carbon footprint is zero, and the radioactive waste 
concerns are minimal. Despite these incentives, Fusion Energy 
Science remains one the most challenging areas of experimental 
physics today.
    Generally speaking--and don't worry, I'll leave the 
detailed explanation to our panel of expert witnesses--Fusion 
Energy Science is the applied study of a plasma, or ionized 
gas, and is dependent on three main conditions: plasma 
temperature, density, and confinement time. During this 
hearing, you'll hear terms like ``inertial confinement'' and 
``tokamak.'' These are different techniques and devices used by 
scientists to control these three quantities in their 
experiments as they work to successfully generate fusion 
energy.
    The Department of Energy (DOE) supports fusion research 
primarily through its Fusion Energy Sciences (FES) program 
within the Office of Science. Domestically, it funds robust 
research through its national labs and partnerships with 
industry.
    At Lawrence Livermore National Lab, the National Ignition 
Facility, or NIF, pursues ignition in the lab by using a high-
energy laser to induce inertial fusion and provide critical 
science for DOE's nuclear stockpile stewardship mission.
    The DIII-D National Fusion Facility, a DOE user facility 
managed by General Atomics, is the largest magnetic fusion 
facility in the United States. This program seeks to provide 
solutions to operational issues that are critical to the 
success of tokamak-style fusion reactors like the International 
Thermonuclear Experimental Reactor (ITER) project. Considered 
the leading research innovation--initiative in fusion science, 
the ITER project is a major international collaboration to 
design, to build, and to operate a first-of-a-kind research 
facility to achieve and maintain a successful fusion reaction 
in the lab.
    Though located in France, ITER is also a U.S. research 
project. Over 80 percent of total U.S. awards and obligations 
to ITER are carried out in the United States. As of December 
2017, the U.S. ITER Organization has awarded more than $975 
million in research and engineering funding to approximately 
600 U.S. laboratories, companies, and universities.
    The DOE's fiscal year 2019 budget request for ITER is $75 
million, well below the required commitment level to keep the 
project on track. If enacted, this may result in damaging 
delays to the ITER project and sends the wrong message to the 
international fusion community about America's commitment to 
its international agreements and our leadership in science.
    When determining the next steps for the domestic U.S. 
fusion energy program, we must consider the importance of 
access to the ITER reactor for American researchers and 
America's standing and credibility as a global scientific 
collaborator. If the United States is going to lead the world 
in cutting-edge science--and we hope it does--we cannot take 
our commitments to our international partners lightly.
    I want to thank our accomplished panel of witnesses for 
their testimonies today, and I look forward to a productive 
discussion about this exciting area of research.
    [The prepared statement of Chairman Weber follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. I now recognize the Ranking Member, the 
gentlewoman from California, for her opening statement.
    Ms. Lofgren. Thank you very much. Just a note that the 
actual Ranking Member is in Texas today. It's the election day 
in Texas. So I'm happy to be able to fill in, and I thank you, 
Mr. Chairman, for holding this hearing and for the wonderful 
witnesses that we have before us.
    As the Chairman has said, fusion is the process that powers 
the sun and stars, so we know it works, but, as all the 
witnesses here will be able to discuss in far more detail than 
me, controlling and harnessing a fusion plasma here on Earth is 
one of the most difficult challenges that our nation and indeed 
the world's top scientists and engineers are working to 
address.
    That said, if we're successful, then fusion has the 
potential to provide abundant, reliable, emission-free, and 
practically limitless energy to meet a large portion of our 
electricity needs in the foreseeable future. Given the huge 
potential benefits of developing a viable approach to fusion 
energy, I believe that this is an area we should be strongly 
investing in.
    Unfortunately, that's not what we're seeing in the 
Department of Energy's recent budget request for fiscal year 
2019 which would cut the Office of Science's fusion research 
program by about 11 percent and would also entirely eliminate 
ARPA-E, which is currently supporting a portfolio of innovative 
fusion projects that could point the way to producing fusion 
energy quickly and at a lower cost.
    Lastly, as I'm sure will learn more about from Dr. 
Herrmann, the budget for the DOE NNSA inertial confinement 
fusion program, including support for the National Ignition 
Facility at Lawrence Livermore National lab, would be slashed 
by 20 percent. Now, the focus of this program is actually of 
course not on energy but on ensuring the reliability of our 
nation's nuclear weapons stockpile. Yet, because there is 
currently no ongoing federally supported program to develop 
inertial fusion concepts specifically for energy applications, 
this weapons-relevant work is currently the only way that many 
of these concepts are able to advance. So these major cuts 
could be, you know, very bad for both our national security and 
our energy future.
    I'd like to note, as the Chairman has, that support for the 
U.S. contribution to ITER would receive an increase in this 
request but that the actual level of $75 million is below our 
obligation. The most recent official estimates we've received 
from the Department projected our contribution to be at least 
$230 million in fiscal year 2018 and $240 million in fiscal 
year 2019.
    And it reminds me, you know, several years ago we were 
concerned, and expressed concern at this Committee, about 
whether our international partners would in the end live up to 
their obligation. They have, and it's now the United States 
that is at risk of being the deadbeat, so I'm hopeful that we 
can address that.
    These lower investments, you know, do not reflect Dr. 
Bigot's tenure and the progress that has been made at the site, 
and we look forward to hearing from him.
    I'll just note that the good news is that Fusion Energy 
Science research has always had bipartisan support here in the 
Committee and in the Congress. It's always hard to fund what 
you believe in, but I'm hopeful that we will make progress in 
that regard again on a bipartisan basis.
    And I've had a personal interest in fusion energy since my 
time first began here in Congress, and I'm hopeful that that 
long-term interest will finally pay dividends in ignition at 
one of our leading science facilities.
    So with that, Mr. Chairman, I thank you for the hearing and 
yield back.
    [The prepared statement of Ms. Lofgren follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. I thank the gentlelady.
    Let me introduce our witnesses. And, Doctor, I'm coming to 
you first. Is it--I'm sorry. I now recognize the Ranking Member 
of the full Committee, Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman. I'm glad to see 
you so eager to get on with the hearing, too, and a good 
hearing it is.
    Chairman Weber. The gentleman's time is expired.
    Chairman Smith. Stop while I'm ahead. Thank you again, Mr. 
Chairman.
    Today, we will hear about the status of fusion energy 
research and the prospects of future scientific discoveries in 
fusion energy. The basic purpose of fusion energy is to create 
the equivalent of the power source of a star here on Earth. By 
creating and controlling the same nuclear reactions that occur 
in a star within a fusion reactor, heat from these reactions 
could be converted into renewable and reliable electricity. It 
is no surprise that fusion has captured the imagination of 
scientists and engineers for over half a century.
    The Department of Energy has supported basic research in 
fusion energy since 1951. The DOE Office of Science Fusion 
Energy Sciences program funds research and science 
infrastructure at DOE national labs. At the Princeton Plasma 
Physics Laboratory, scientists conduct fusion research through 
the National Spherical Torus Experiment Upgrade user facility. 
NSTX-U is a magnetic confinement fusion device called a 
spherical tokamak that is currently the most powerful device of 
its kind in the world.
    At Lawrence Livermore National Laboratory, the National 
Ignition Facility uses the world's largest and highest-energy 
laser to generate fusion power in the lab with an alternative 
technique called inertial confinement fusion.
    DOE also funds world-class fusion research through its 
partnerships with industry. At General Atomics, a defense 
contractor based in California, the DIII-D National Fusion 
Facility is a tokamak fusion research facility that operates as 
a DOE user facility through the Office of Science. DIII-D 
enables scientists from laboratories, private sector 
organizations, and universities around the world to carry out 
experiments in cutting-edge fusion research. Someday, the 
results of this research may provide the scientific foundation 
for producing power through fusion. This would obviously reduce 
carbon emissions by a huge amount with major implications for 
climate change.
    The ultimate goal in Fusion Energy Science is to provide a 
sustainable, renewable, zero-emissions energy source. While we 
cannot predict when fusion will be a viable part of our energy 
portfolio, it is clear that this is critical basic science that 
could benefit future generations.
    One major step toward achieving this goal is the ITER 
project. ITER is a multinational, collaborative effort to build 
the world's largest tokamak-type fusion reactor in southern 
France. Sponsored by the European Union, India, Japan, China, 
Russia, South Korea, and the United States, the ITER project 
can help answer fundamental challenges in plasma physics and is 
a key step in achieving commercial fusion energy.
    The Director-General of ITER, Dr. Bernard Bigot, will 
provide an update on the project's advances and challenges for 
the Committee today. I want to specifically thank him for his 
leadership of this complex and challenging international 
research project.
    By contributing nine percent of the cost to construct ITER, 
American scientists will be able to access 100 percent of the 
discoveries achieved through the project. That's why it is 
imperative that the U.S. meet its obligations to ITER and fully 
fund fusion research at the Department.
    According to the research community, a minimum of $163 
million for in-kind contributions and $50 million in cash 
contributions in fiscal year 2019 is necessary to maintain the 
scheduled U.S. contribution to the project. Unfortunately, 
DOE's fiscal year 2019 budget request for ITER is only $75 
million. Reduced annual funding will only delay ITER 
instruments being built here in the United States and cause 
construction delays that increase overall project cost.
    With countries like India, Japan, China, and Russia 
partnering through ITER to produce and share cutting-edge 
fusion research, we cannot afford to lose our seat at the 
table. In addition, we cannot expect to receive international 
support for our domestically hosted global research projects 
like the high-priority Long-Baseline Neutrino Facility at 
Fermilab if we do not honor our international obligations.
    Basic research, like fusion science, provides the 
underpinnings for groundbreaking new energy technology. 
Achieving commercial fusion energy technology will require 
strong U.S. leadership and consistent investment in discovery 
science. To maintain our competitive advantage as a world 
leader in science, we must meet our international commitments 
and continue to support the research that will lead to next-
generation energy technologies.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[The prepared statement of Ranking Member Eddie Bernice 
Johnson:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. I thank the gentleman.
    Let me now introduce our witnesses. Our first witness today 
is Dr. Bernard Bigot, Director-General of the ITER 
Organization. In his distinguished career, Dr. Bigot has held 
senior positions in research, higher education, and government. 
Prior to his appointment at ITER, he completed two terms as 
Chairman and CEO of the French Alternative Energies and Atomic 
Energy Commission, or CEA. Dr. Bigot was trained at the ENS 
Saint Cloud and holds an agregation, the highest-level teaching 
diploma in France, in physical science and a Ph.D. in 
chemistry. Welcome, Dr. Bigot.
    Our next witness is Dr. James W. Van Dam. Am I saying that 
right?
    Dr. Van Dam. You are.
    Chairman Weber. Okay. Acting Associate Director of Fusion 
Energy Sciences in the Office of Science at the Department of 
Energy. Previously, Dr. Van Dam was a Research Scientist, 
Associate Director, and Director of the Institute for Fusion 
Studies at the University of Texas in Austin. He was also 
Director of the U.S. Burning Plasma Organization and Chief 
Scientist for the U.S. ITER Project Office. Dr. Van Dam 
completed his graduate study at University of California 
Berkeley and the Institute of Plasma Physics in Japan. He 
received his Ph.D. at UCLA and was a postdoc at the Institute 
for Advanced Study at Princeton. Welcome, Dr. Van Dam.
    Our third witness is Dr. Mickey Wade, the Director of 
Advanced Fusion Systems of the Magnetic Fusion Energy Division 
of General Atomics. Prior to serving in this role, Dr. Wade was 
the Director of the DIII-D national fusion program, the largest 
fusion research program in the United States with roughly 500 
researchers from over 90 institutions from around the world. 
Dr. Wade received his Ph.D. in nuclear engineering from the 
Georgia Institute of Technology in 1991. He is the author of 
over 30 first-author papers, a fellow of the American Physical 
Society, and has served on the editorial boards of Nuclear 
Fusion and Physics of Plasma. Welcome, Dr. Wade.
    I will now recognize the Ranking Member, the gentlelady 
from California, to introduce our last witness.
    Ms. Lofgren. Well, thank you. I'd like to--although 
Lawrence Livermore Lab is not in my district, it's in the 
neighborhood, and so I'm pleased to introduce Dr. Mark 
Herrmann, who is the Director of the National Ignition Facility 
at Lawrence.
    As the Director of NIF, Dr. Herrmann manages an 
experimental science facility that serves the National Nuclear 
Security Administration's Stockpile Stewardship Program, and he 
pushes the frontier of inertial confinement fusion and 
discovery science. Before coming to NIF, Dr. Herrmann spent 
nine years at Sandia National Labs, and prior to that, he was a 
physicist at Lawrence Livermore National Laboratory. He's a 
fellow of the American Physical Society. He's won numerous 
awards for his scientific work and leadership in his field. He 
received his undergraduate degrees from Washington University 
at St. Louis and completed his Ph.D. from the Plasma Physics 
Program at Princeton University. Thank you for being here, Dr. 
Herrmann. We look forward to hearing from you.
    I yield back.
    Chairman Weber. I thank the gentlelady.
    I now recognize Dr. Bigot for five minutes to present his 
testimony. Dr. Bigot?

                TESTIMONY OF DR. BERNARD BIGOT,

                       DIRECTOR-GENERAL,

                       ITER ORGANIZATION

    Dr. Bigot. Thank you very much, Chairman Weber and 
distinguished Members of the Committee, for giving me the 
opportunity to present you the updated information on the ITER 
project.
    [Slide.]
    Dr. Bigot. This slide shows the current status of the ITER 
site with the tokamak building and the assembly hall at the 
center. Today, March 6 is precisely my three years anniversary 
as ITER Director-General. In March 2015, as you can see, after 
seven years, progress was quite slow. At that time, the ITER 
project was in urgent need of reform.
    [Slide.]
    Dr. Bigot. I believe we can say with confidence three years 
later, looking at this new slide, that the questions raised by 
several ITER members in 2013, 2014 about the capacity to manage 
this complex international construction project have been 
properly answered.
    As of November 2017, the ITER project has crossed a 
significant milestone, the completion of 50 percent of the 
total construction work scope through First Plasma. These terms 
include design, component manufacturing, building construction, 
shipping, and delivery assembly and installation. This is no 
small achievement. Globally, these project performance 
indicators shows the ITER project is progressing with 
reliability.
    [Slide.]
    Dr. Bigot. On the work site, as you see, the Tokamak 
Complex, including the tokamak building, the diagnostics 
building and the tritium building is advancing rapidly. The 
Assembly Hall is complete and turned over for assembly of the 
internal equipment. Similar progress is being made on the 
cryoplant, magnet power conversion building, the cooling water 
system, and other buildings across the worksite.
    Fabrication of the ITER components both onsite and globally 
worldwide is showing equal momentum. This includes the most 
complex and major components such as vacuum vessel sectors 
progressing in Korea and Europe, the cryostat manufactured by 
India, thermal shield in mass production in Korea, and all 
superconducting magnets here in the United States to toroidal 
field magnets in Italy and Japan and poloidal field magnets in 
Europe, Russia, and China.
    Many first-of-a-kind components are requiring an 
unprecedented combination of size and precision. The further we 
progress, the more this project illustrates the interdependency 
of overall performance. This performance also is the best 
evidence of organizational reforms since 2015: a clear 
decision-making process, profound integration of the work of 
the seven ITER members with the ITER Organization, a reliable 
schedule, and above all strong international project management 
and project culture.
    I am pleased to report continuing validation from external 
reviews. When I last spoke to this Committee in April 2016, we 
had received the report of the independent ITER Council Review 
Group, which was followed one month later by the positive and 
cautiously optimistic report by the U.S. Secretary of Energy.
    [Slide.]
    Dr. Bigot. Since that time, we have had reviews on many 
aspects of project management, as you see on the slide. Each of 
these reviews has found that the ITER project is well-managed, 
while helping us to refine further our methods. We are 
committed to continuous improvement.
    In April 2016, I reported to this Committee that we had set 
up technical and organizational milestone to demonstrate to the 
ITER Council that the project is staying on track for success. 
I am pleased to say that 31 milestones have now been achieved 
from January 2016 through First Plasma. We remain on track for 
First Plasma in 2025. Again, this consistent progress cannot be 
taken for granted. It demands the collective commitment of all 
ITER members.
    This brings me to my final and most important point, to 
thank the Committee for placing this ITER status update in 
context because ITER must be understood as an integral element 
of U.S. fusion research and the next major step toward a 
burning or self-heating plasma, as underlined by the recent 
preliminary report of the U.S. National Academies.
    ITER is the converging next step in the fusion research 
roadmap of the U.S. and every ITER member. The shortfall in the 
contribution of any single member, if it impacts the delivery 
of components or the capacity of ITER to meet the assembly and 
installation schedule, will have a cascading strong effect in 
delays, costs, and the description of fusion research for every 
other member. It is why I would like to urge the United States 
to timely comply with their contribution commitment.
    [Slide.]
    Dr. Bigot. We are committed at ITER, as you see on this 
slide, day and night to make this project the model for 
international collaboration in complex science and technology. 
We are committed to making ITER a sound investment for the 
United States, as for all ITER partners. We look forward to a 
long and fruitful collaboration. Thank you.
    [The prepared statement of Dr. Bigot follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Dr. Bigot.
    Dr. Van Dam, you're recognized for five minutes.

               TESTIMONY OF DR. JAMES W. VAN DAM,

                   ACTING ASSOCIATE DIRECTOR,

                    FUSION ENERGY SCIENCES,

                       OFFICE OF SCIENCE,

                      DEPARTMENT OF ENERGY

    Dr. Van Dam. Thank you, Chairman Weber and Ranking Member 
Lofgren in place of Ranking Member Veasey, and also full 
Committee Chair Smith, my former Congressman from Austin, 
Texas, and other distinguished Members of the Subcommittee. 
Thank you for this invitation to testify before you today about 
fusion energy research.
    I am currently the Acting Associate Director for the Office 
of Fusion Energy Sciences, and I appreciate this opportunity to 
review the status of fusion research and describe programmatic 
directions going forward.
    The mission of the Fusion Energy Sciences, or FES, program 
is to expand the fundamental understanding of matter at very 
high temperatures and densities and to build a scientific 
foundation needed to develop a fusion energy source. This is 
accomplished through the study of plasma called the fourth 
state of matter, which is wide-ranging since 99 percent of the 
visible universe is plasma.
    The FES program addresses several Administration research 
and development priorities. Fusion research has the potential 
to contribute to American energy dominance by making available 
a robust, clean baseload electricity technology. Plasma science 
can contribute to American prosperity through the potential for 
spinoff applications, establish partnerships within and outside 
DOE and increase our research effectiveness, and we also help 
train a STEM-focused workforce in key areas of technological 
and economic importance, as well as national security.
    The DIII-D National Fusion Facility at General Atomics and 
the National Spherical Torus Experiment Upgrade, NSTX-U, at 
Princeton Plasma Physics Laboratory, are world-leading Office 
of Science user facilities. The DIII-D scientific team has 439 
researchers from 49 U.S. institutions, plus another 164 
researchers from 46 institutions and seven other countries. The 
DIII-D scientific results are recognized worldwide.
    NSTX-U is the world's highest-performance spherical 
tokamak, a magnetic configuration invented in the United States 
with attractive advantages of compactness and component 
testing. NSTX-U is currently not operating while its magnetic 
coils are being repaired.
    The United States is a world leader in fusion theoretical 
modeling and high-performance computer simulations. FES 
supports eight multi-institutional Scientific Discovery through 
Advanced Computing, SciDAC, centers jointly with the Advanced 
Scientific Computing Research Program Office. Fusion 
researchers also lead one of the Office of Science exascale 
computing projects.
    Several multi-institutional U.S. teams conduct research 
under international partnerships on superconducting tokamaks 
and stellarators with long-duration capabilities not available 
in the United States. To test fusion materials under extreme 
conditions, the fiscal year 2019 budget request proposes a 
linear diverter simulator facility with world-leading 
capabilities.
    Under the U.S. contributions to ITER construction project, 
we are fabricating several hardware systems. One is the central 
solenoid, which will be the world's largest superconducting 
pulsed electromagnet, the so-called heartbeat of ITER. The U.S. 
First Plasma subproject is halfway finished. The United States 
has spent $1 billion, 90 percent of which is within the United 
States through approximately 600 contracts in 44 States.
    The U.S. ITER project is very well-managed. The ITER 
Organization has significantly improved its project management 
under Director-General Bigot, and we thank him. The 
construction progress onsite is very substantial.
    FES also supports discovery plasma science through 
partnerships with the National Science Foundation and DOE's 
National Nuclear Security Administration. U.S. scientists are 
world leaders in inventing new plasma measurement techniques.
    Strategic directions going forward for the FES program are 
informed by several planning efforts, including priorities 
described in the document, ``The Office of Science's Fusion 
Energy Science Program: A 10-Year Perspective;'' research 
opportunities identified in recent community workshops, one of 
which was led by Dr. Wade; reports from the Fusion Energy 
Sciences Advisory Committee; and reports from the National 
Academy of Sciences. Currently, a National Academy study on the 
strategic plan for U.S. burning plasma research is underway. 
Dr. Herrmann is one of the panel members. And also the National 
Academy is now launching the 2020 Plasma Decadal Survey.
    Thank you for this opportunity today to describe DOE's 
research efforts in Fusion Energy Sciences research, and I look 
forward to discussing this topic with you and answering your 
questions. Thank you.
    [The prepared statement of Dr. Van Dam follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you. Dr. Wade, you're recognized for 
five minutes.

                 TESTIMONY OF DR. MICKEY WADE,

              DIRECTOR OF ADVANCED FUSION SYSTEMS,

                MAGNETIC FUSION ENERGY DIVISION,

                        GENERAL ATOMICS

    Dr. Wade. Thank you, Mr. Chairman. I would like to thank 
the Committee for this opportunity to share my views on the 
U.S. fusion program. I'd like to stress that these are my views 
and not necessarily those of my employer.
    I have spent nearly 30 years working in fusion research, 15 
of those at Oak Ridge National Lab, and the last dozen at 
General Atomics. I'm passionate about fusion energy and maybe 
as importantly about the role the United States can play in its 
development.
    This marks the 80th anniversary of the discovery of the 
process the powers our sun and stars, nuclear fusion. We've 
made remarkable progress over the intervening 80 years in 
figuring out how to harness the enormous potential of fusion 
energy. The United States has been at the forefront of this 
progress, forging a path that has taken fusion energy from a 
dream to a potential energy source for thousands of years. 
Critics can no longer say that fusion is 50 years away and 
always will be.
    As we've just heard from Dr. Bigot, the first phase of 
the--of construction of the most ambitious fusion project ever 
undertaken, ITER, is now 50 percent complete. In 2025, a little 
over seven years from now, ITER will produce its First Plasma. 
Just ten years later, ITER will begin an operations phase that 
will produce powerplant levels of fusion power for the first 
time.
    Anticipating this, other nations are increasing their 
emphasis on fusion energy, putting together strategic plans to 
capitalize on ITER's success. Private enterprises are now 
evaluating high-risk, outside-the-box approaches to fusion 
energy. Yet as excited as I am about this future, I'm very 
concerned that our nation's commitment to fusion is wavering 
and the decisions our country is making now will relegate us to 
the sidelines in the future. U.S. participation in ITER is in 
question. Investment in U.S. fusion capabilities is being far 
outpaced by other nations, particularly China. The United 
States does not have a comprehensive strategic plan for fusion 
development.
    The United States has long been a world leader in fusion 
energy research, and this continues today. U.S. scientists 
continued to discover new phenomena and develop pioneering 
solutions to fusion's challenges. The United States is building 
the ITER central solenoid. When fully assembled, it will be 
nearly as wide as this table, nearly as tall as this building, 
and be the most powerful electromagnet in the world. It will be 
the heart of ITER, enabling ITER to generate plasma 
temperatures that exceed 150 million degrees, about 10 times 
the temperature of the sun.
    So what needs to be done? I offer two recommendations for 
your consideration. Number one, the United States should make a 
firm commitment to fully fund the ITER project. The early days 
of ITER were very challenging, but it appears the ship is now 
sailing in calm waters thanks to the efforts of Dr. Bigot and 
the ITER members. I believe ITER is our ticket to be a tier-one 
player in fusion development, giving us full access to the 
preeminent fusion facility in the world for only nine percent 
of the fusion project cost. Over 80 percent of these 
contributions are for in-kind projects built in the United 
States, creating jobs and associated expertise here. On the 
flip side, withdrawing from ITER could isolate U.S. scientists 
from the international effort and would require a new U.S. 
approach to study burning plasma with an unknown time horizon 
and cost.
    Number two, the United States should move now to establish 
a comprehensive strategic plan that seeks to capitalize on 
ITER's success. Fusion energy should be called out in a 
national energy policy. A strategic plan with clearly defined 
technical objectives should be developed that sets the United 
States on an aggressive distinctive pathway to fusion energy. 
This pathway should include new investment in world-class 
research capabilities that will attract and engage the best 
U.S. minds from universities, national labs, and the private 
sector. Following through on initiatives, evaluating new ideas, 
and developing transformational technologies will all be 
required in arriving at the most cost-attractive approach for 
fusion development.
    In 1962, at the beginning of the Apollo program, President 
John F. Kennedy issued a proclamation that I think speaks in to 
this hearing today. He said, and I quote, ``We choose to do 
these things not because they are easy but because they are 
hard, because that goal will serve to organize and measure the 
best of our energies and skills, because that challenge is one 
that we are willing to accept, one we are unwilling to 
postpone, and one we intend to win.'' Less than seven years 
later, an American walked on the moon. It's in the American DNA 
to take on the grandest challenges and not just succeed but be 
the best. Fusion is one of those grand challenges.
    I hope you will join us in forging a path that ensures the 
United States is a world leader in making fusion energy a 
reality for future generations. Thank you for the opportunity 
to speak with you today. I look forward to your questions and 
working with you in the future.
    [The prepared statement of Dr. Wade follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. Thank you, Doctor.
    Doctor, is it Herrmann or Herrmann?
    Dr. Herrmann. It's Herrmann.
    Chairman Weber. Okay. You're recognized for five minutes.

           TESTIMONY OF DR. MARK HERRMANN, DIRECTOR,

                  NATIONAL IGNITION FACILITY,

             LAWRENCE LIVERMORE NATIONAL LABORATORY

    Dr. Herrmann. Thank you. Chairman Weber, Congresswoman 
Lofgren, and Members of the Committee, thank you for the 
opportunity to appear before this Committee and offer testimony 
on the future of fusion energy research.
    As was already mentioned, I'm the Director of the National 
Ignition Facility, or NIF, at Lawrence Livermore National 
Laboratory, which is sponsored by the National Nuclear Security 
Administration. NIF is a football stadium-sized facility 
containing the world's most energetic laser. I've had the 
pleasure of giving NIF tours to several Members of the 
Committee and of course would be happy to show off the 
incredible work done by our scientists and engineers to those 
of you who haven't had a chance to visit.
    NIF's lasers are focused on targets smaller than a pencil 
eraser to create conditions of very high temperatures and 
pressures called high-energy density or HED. Since greater than 
99 percent of the yield of our nuclear weapons comes in the HED 
state, HED experiments are a critical component of the science-
based Stockpile Stewardship Program, which has the goal of 
ensuring that our nuclear stockpile remains safe, secure, and 
effective in the absence of further explosive nuclear 
underground testing.
    In addition to NIF, the Z-Pulsed Power Facility, and the 
OMEGA Laser Facility play complementary roles in the Stockpile 
Stewardship Program. Experiments on NIF are providing data in 
important regimes to both enhance and test our simulations of 
our nuclear weapons. Simulations are incredibly powerful tools, 
especially now that we're getting better and better computers, 
but it is essential that they be compared to data in order to 
avoid getting the wrong answers. NIF, Z, and OMEGA also play a 
major role in recruiting and training the scientists and 
engineers who are the next generation of stockpile stewards.
    One of stewardship's grand scientific challenges 
established at the birth of the program is to achieve fusion 
ignition in the laboratory. Ignition is when the energy 
released from the fusion reactions further heats the fusion 
fuel referred to self-heating--referred to as self-heating--
leading to more reactions and a large release of energy. 
Pursuit of ignition provides the United States with an 
experimental platform to study many incompletely understood 
aspects of nuclear weapons performance. In contrast to magnetic 
confinement fusion, inertia confinement fusion is obtained by 
squeezing the fusion fuel to higher pressures and temperatures 
than found at the center of the sun.
    Early experiments on NIF ending in 2012 fell far short of 
achieving ignition, despite optimistic projections. A number of 
experiments were then performed, and many gaps in our 
understanding were identified. In 2016, NNSA established a goal 
for 2020 to assess the efficacy of NIF for achieving ignition. 
Today, we are on track at the halfway point of that goal. In 
fact, last year, improvements enabled the fusion yield on the 
best implosions on NIF to date to more than double the previous 
record yield to over 50 kilojoules. That's 25 times higher than 
the fusion yields in 2012. These implosions have demonstrated 
modest self-heating, a critical step on the path to ignition 
that's akin to trying to light a campfire and having the wood 
start to smoke.
    Simulations suggest that a 30 percent enhancement in either 
the pressure or the confinement time of this plasma would bring 
us to ignition, although it is possible to--that the 
simulations could be wrong, which is why, of course, we do 
experiments.
    We are now pursuing several exciting directions for 
improving the fusion yield at NIF. If ignition is obtained on 
NIF, it would be the first time ever in the laboratory, and 
such a breakthrough could open the path--a possible path to 
inertial fusion energy, or IFE, that could have significantly 
different technological risks than magnetic fusion approaches 
we've been hearing about today. An IFE system would work by 
using a driver like a laser to ignite targets multiple times 
per second. To be clear, NNSA does not have an energy mission, 
and IFE research is not being performed at NIF today.
    The National Academy of Sciences studied IFE in 2013, and 
their report concluded that the appropriate time for the 
establishment of a national coordinated broad-based IFE program 
within DOE would be when ignition is achieved. However, the 
committee also concluded that the potential benefits of energy 
from ICF also provide a compelling rationale for including IFE 
R&D as part of the long-term R&D portfolio for the--for U.S. 
energy. This is an important conclusion of the NAS report.
    A number of promising technologies highlighted in the NAS 
report as key to eventual IFE systems are making steady 
progress, but without an IFE program, the United States is not 
in a position to assess the significance of these advances.
    A modest IFE investment is all the more justified, given 
that the United States leads the world in the high-energy 
density science. NIF, for example, operates with 10 times the 
energy of the next largest laser in the world, which is in 
China.
    There are few remaining fields of science where the United 
States currently maintains such a lead over the rest of the 
world. This world leadership, along with the compelling 
scientific opportunities such as the grand challenge of 
ignition, have been a magnet for the best and brightest 
scientists and engineers to pursue research on the NIF and to 
join the Stockpile Stewardship Program.
    Today, the rest of the world is aggressively catching up. 
NIF-scale lasers are under construction in both France and 
Russia, the Chinese are exploring designs for lasers that are 
1.5 to 3 times NIF's scale, and in high-intensity lasers the 
leadership has shifted from the United States where they were 
invented to Europe and Asia, as noted in a recent NAS study.
    While the world is investing more in HED science the fiscal 
year 2019 President's budget requests reducing funding for the 
national ICF program by more than 20 percent relative to fiscal 
year 2017, a reduction of more than $100 million. The proposed 
budget reduces funding for NIF by more than $60 million, zeroes 
support for target fabrication at General Atomics, and includes 
major cuts to the OMEGA Laser Facility, putting the facility on 
a path to closure over the next three years.
    The academic programs that are essential to the field's 
future are also zeroed. Together, these cuts cripple our 
academic partners and could lead to the loss of a generation of 
early-career HED scientists and students. At Livermore, the 
proposed cuts will lead to a major disruption in our ability to 
provide the HED experiments needed to support both near-term 
and long-term stewardship deliverables, and the cuts will 
strongly impact the pursuit of fusion ignition, leading to a 
multiyear delay of the goals set out in 2020.
    We're close--we are working closely with NNSA and our 
national partners to manage the impacts of these cuts should 
they be enacted and remain focused on the highest priority 
deliverables of the stewardship program, but they must--it must 
be understood that these cuts will have major negative 
implications for U.S. leadership in HED science and fusion 
research.
    Thank you again for your time, and I look forward to your 
questions.
    [The prepared statement of Dr. Herrmann follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Doctor.
    I now recognize myself for five minutes.
    Dr. Bigot, in your testimony you stress that ITER is an 
integrated project whose success relies on the performance of 
each of its constituent members. Be as specific as you can. 
Could you explain what would happen to the ITER project if the 
United States fails to meet our commitments to the ITER 
project?
    Dr. Bigot. Thank you very much. It's very clear that the 
United States has two roles, even three I would say. The first 
one is to provide in-kind components, and you understand maybe 
that this tokamak facility is a highly integrated facility in 
such a way that if a component is not onsite and under 
specification, on time, it will stop the whole project.
    The most important equipment which is to come soon is the 
central solenoid that we spoke about. It is the backbone I 
would say of the whole facility. As well there is the tokamak 
cooling water system is a system that will extract the heat 
from the tokamak. There are also several diagnostics, which are 
absolutely needed. You will see that indeed in 2018, 2019, 
2020, most of the components have to be completed and to be 
delivered. If some of the component is not properly designed on 
time, it will impact everything.
    The second point is the ITER Organization. Beyond the 
responsibility of the United States, ITER Domestic Agency, 
National Oak Ridge Laboratory, the ITER Organization has a 
responsibility to install and assemble all these components 
coming from all over as well. In 2018, early 2019, I have to 
place all the nine assembly contracts with some leading 
companies in such a way that between 2018 and 2024, six years, 
we will be able to assemble these components.
    So if the United States doesn't provide the in-cash 
contribution, we will be behind budget. Right now, the United 
States has not paid the in-cash contribution in 2016, 2017. 
It's something around 70 million of euro owed, and for 2018, we 
have low expectation if we stay with the 63, so it's very 
important that we keep in.
    Chairman Weber. Thank you. My time is getting away from us 
a little bit. I appreciate that insight.
    Dr. Van Dam, let me come to you. Will the Department of 
Energy commit to honoring our obligations under the ITER 
agreement? What say you?
    Dr. Van Dam. Well, I'm speaking on behalf of the 
Administration. As you know, the Administration is doing a 
review of all civil nuclear-energy-related activities. ITER has 
been included in that, and we are waiting for that to provide a 
decision about whether the United States stays in ITER or not. 
In the meantime, funding is provided for the two highest 
hardware systems that we're providing. One was just mentioned, 
the central solenoid at General Atomics. The other is the 
tokamak cooling water system also mentioned.
    Chairman Weber. Of course I served in the Texas Legislature 
with Governor Perry for four years. Do you know, is the 
Secretary aware of this project or how aware is he maybe I 
should ask you?
    Dr. Van Dam. That may be beyond my pay grade, but I 
certainly hope he is. I know he's had letters from people like 
Dr. Bigot and others, and they've been given to us to write 
responses----
    Chairman Weber. Okay.
    Dr. Van Dam. --and there is a visit coming up from state 
heads.
    Chairman Weber. If I give you his cell phone, will you call 
him? Just----
    Dr. Van Dam. I remember him fondly from Texas.
    Chairman Weber. Dr. Van Dam----
    Mr. Foster. Would the Chairman yield for a moment on that? 
I can speak from personal experience.
    Chairman Weber. Yes, sir. You bet.
    Mr. Foster. Yes, no, the Secretary is actually very plugged 
into it and very, very enthusiastic about this. He really, you 
know, sees his role as an advocate for the entire program of 
which--of fusion. I spent a day with him as he visited the two 
labs near my district, and so the answer is unquestionably yes.
    Chairman Weber. Well, absolutely good to know. I appreciate 
the gentleman.
    Dr. Van Dam, next question. What type of research in 
advanced scientific computing and materials science do you 
think should be prioritized in order to support the Fusion 
Energy Science program in the next few years?
    Dr. Van Dam. Yes. As you know, advanced computing is a 
priority of the Administration I think across the government, 
and for Fusion Energy Science we are looking to advances in 
exascale computing, which would really help us a lot. We have 
very, very big codes that we run and have been running for 
decades.
    Another area is data science, which includes machine 
learning, and we think there's a strong potential for quantum 
information science to help our field, especially in 
applications. Now, was that the entirety of the question or was 
there----
    Chairman Weber. Yes, and I need to move on. I'm running out 
of time here if I may, so thank you for that answer. This is a 
question for all of you, so we'll start with Dr. Bigot.
    Dr. Bigot, have you thought about or what impact do you 
think the commercialization of fusion energy could have on 
climate change?
    Dr. Bigot. Really, as you know, many have found, okay, 
plasma and the burning plasma will deliver an energy without 
any impact on the climate. We just release helium if we release 
anything, and it is benign, chemically benign, no impact on the 
climate, no impact on the environment. So it's one of the most 
important advantages we could expect from this technology.
    Chairman Weber. Okay. Dr. Van Dam, same question.
    Dr. Van Dam. Yes, I would echo that answer and just say 
that if you look at certain Asian countries, for example, that 
have great problems with pollution and so forth, they are 
pursuing fusion very vigorously.
    Chairman Weber. Right. And offline at some point I'd be 
interested in a discussion about the amount of energy that goes 
into the solenoid, the electromagnetic coil, how you get there, 
what produces that energy, and what it costs, but we'll do that 
at a later date.
    Dr. Wade?
    Dr. Wade. Yes, I would just echo the same answer. I will 
point out that fusion has the potential to be a large baseload 
source of electricity, which renewables, without battery 
storage, have a challenge doing that. So creating a carbon-free 
footprint with a large baseload will sort of transform how 
fusion is--and how energy is produced in this world so----
    Chairman Weber. Okay. Dr. Herrmann?
    Dr. Herrmann. Just echoing my other fellow members here--
committee--the fusion is a game-changer for the future energy 
sources of this planet, so it is--it takes a lot of work. It's 
very hard to achieve fusion, but I think it's definitely worth 
the investment that's been made.
    Chairman Weber. I thank you. I now recognize the gentlelady 
from California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    You know, I was thinking about all of the great work that 
each one of our witnesses is doing, and I was thinking about 
the--specifically, the National Ignition Facility, which I've 
been interested in since its inception. I think I was there at 
the groundbreaking in '97, and certainly when we--there were 
some glitches in the construction, but ultimately at the 
opening--I remember I spoke at the opening. There was 
tremendous optimism at the time that ignition would be achieved 
in a very short time frame, and I remember saying all that will 
be left will be the engineering and people laughing.
    But here we are. It's a slog. It's a slog, and yet the 
stakes are very high for humanity and our future not only in 
terms of zero-emission energy but potentially even for 
remediation of damage that has already been done. So this is an 
investment that I think is essential for our future.
    In your testimony, Dr. Herrmann, you referenced the 2013 
National Academy report that basically says the potential 
benefits of energy from inertial confinement fusion provide a 
compelling rationale for including inertial fusion energy R&D 
as part of the long-term R&D portfolio for U.S. energy. 
However, that followed their other statement, which basically 
said the appropriate time to establish national coordinated 
broad-based inertial fusion energy program within DOE would be 
after ignition is achieved. So if you don't make the 
investment, you'll never get ignition. Can you help us 
understand these two apparently conflicting comments?
    Dr. Herrmann. Well, I guess I see it as--that they can be 
complementary in this way when ignition is achieved--and I 
think it's a when, not an if--it will be, you know, a potential 
different path with different risks compared to magnetic 
fusion, so it's an attractive option that mitigates risk in 
this high--this very technically risky endeavor. At that time 
it would be appropriate to have a very broad-based approach, 
which would mean we're looking at the drivers, the targets, the 
chambers, everything that needs to be put together to develop 
an energy source.
    Until that time, though, it seems to me that it would be--
would be in a better position if we were doing a small level of 
investment, a modest program that is looking at technology 
development because technology is moving forward, and then the 
United States would be in a position to really assess what are 
the impacts of these advances and be in a better position when 
ignition eventually happens.
    Ms. Lofgren. Well, and I'd just like to note, I mean, 25 
years ago when I first started meeting with fusion scientists, 
I came into the understanding that there are divisions, you 
know, magnetic and it's almost a religious belief. I don't 
share those conflicts. Whatever works, I'm for all the science, 
and I think as time has gone on, the scientists have gotten to 
that position as well.
    I understand--you know, actually in 2016, working with 
Secretary Moniz, I asked him to put together an assessment of 
the current status of federal support for inertial fusion 
energy and potential action items. He did with the career 
professionals in the Department. Now, we've had some personnel 
changes at DOE, but the career professionals are still there, 
and it's my understanding that really this is not a partisan 
issue. It never has been and hopefully never will be.
    So, Dr. Van Dam, do you agree with the recommendations of 
the National Academies report that has been referenced in terms 
of the development of inertial fusion for energy applications, 
that they're still worth addressing? Do you think we should 
find a way for strong merit reviewed proposal for inertial 
fusion energy research?
    Dr. Van Dam. Thank you. And let me begin by saying thank 
you so much for your passionate interest in fusion energy, be 
it magnetic or inertial or both. The Administration follows the 
recommendation from the National Academy report that the 
appropriate time for the establishment of a coordinated program 
in inertial fusion energy would be when ignition is achieved, 
and so at the present time it does not support large-scale 
investment by the Office of Science at the present time. I'm 
sure that Dr. Herrmann's efforts will bring that to pass soon.
    And our investments in FES are then appropriately limited 
as well. We do invest specifically in IFE technology through 
the SBIR program for drivers and diagnostics. At the same time, 
we are supporting the science that underlies IFE----
    Ms. Lofgren. Right.
    Dr. Van Dam. --and HEDLP.
    Ms. Lofgren. Let me ask you, Dr. Herrmann, I was stunned by 
your testimony that a 30 percent enhancement the models show us 
we get to ignition. Now, you've made tremendous changes in 
performance of the NIF in your tenure as Director since 2014. 
Is that enough to--if--absent significant reductions in 
support, can you envision getting that 30 percent? Can you tell 
us where you're going to be or your best estimate with even 
support?
    Dr. Herrmann. I frequently say you have to be an optimist 
to work in fusion.
    Ms. Lofgren. Or to be in Congress.
    Dr. Herrmann. We have, you know, very sophisticated 
simulations that guide us in the work we're doing. We find--and 
when we do experiments--and we've been developing better 
diagnostics--that there are gaps between what our simulations 
say and what we observe. If we can close those gaps, then the 
simulations suggest that we should be able to get over the 
threshold and get to ignition. And we see promising paths 
forward. So we're making progress, and that's the reason for my 
optimism. But we don't know until we get there----
    Ms. Lofgren. Of course not.
    Dr. Herrmann. --if we'll be able to get there or not. I 
feel like we've gone a big part of the way to where we need to 
get to, and so that's--and I think there's a large parameter 
space and an incredibly dedicated team of brilliant scientists 
and engineers working on it, so I think if we have the 
wherewithal to continue, we will eventually get there, but I 
don't know.
    Ms. Lofgren. I think my time is expired. I yield back, Mr. 
Chairman.
    Chairman Weber. I thank the gentlelady.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for five minutes.
    Mr. Rohrabacher. Thank you very much.
    Dr. Van Dam, how much money has been spent on trying to 
produce fusion energy so far?
    Dr. Van Dam. My goodness. By the United States or by--
    Mr. Rohrabacher. No, everybody, but United States and then 
everybody.
    Dr. Van Dam. I would have to take that on as a homework 
assignment.
    Mr. Rohrabacher. You don't know?
    Dr. Van Dam. Well, are you talking about integrated over 
the past--
    Mr. Rohrabacher. Well, we're talking about a major project 
here. You don't know how much money has been expended so far by 
the people who are engaged in this coalition to create fusion 
energy?
    Dr. Van Dam. Are you speaking of ITER?
    Mr. Rohrabacher. I'm not. I'm talking about fusion energy 
now.
    Dr. Van Dam. We have a current fiscal year 2019 budget 
request of $340 million.
    Mr. Rohrabacher. We do, right.
    Dr. Van Dam. Yes.
    Mr. Rohrabacher. And----
    Dr. Van Dam. To the Congress, and then it's up to you of 
course.
    Mr. Rohrabacher. Okay.
    Dr. Van Dam. The fiscal year 2017 enacted was $380 million. 
Before that it was a bit higher. It was running about $400 
million per year.
    Mr. Rohrabacher. Okay. So you know the budget for the last 
two or three years but before that--have we spent billions of 
dollars on fusion energy over the years and with our allies----
    Dr. Van Dam. Yes.
    Mr. Rohrabacher. --billions and billions? How much--have we 
had any actual realization at all of something other than the 
computer models that suggest that we're going to get there, if 
we had an ignition of fusion--manmade fusion energy?
    Dr. Van Dam. Well, there are two examples, one in the 
United States, one in Europe. The U.S. example was the TFTR 
tokamak at Princeton. This was the late '90s, and they got very 
close to breakeven. The Joint European Torus likewise around 
the same time got even--
    Mr. Rohrabacher. Very close isn't the----
    Dr. Van Dam. Yes.
    Mr. Rohrabacher. --is not yet, right?
    Dr. Van Dam. Well, those were still smaller machines.
    Mr. Rohrabacher. Yes. But very close didn't--doesn't work.
    Dr. Van Dam. Well, there's breakeven and then there's--
    Mr. Rohrabacher. Well, we have manmade fusion energy. Do 
you have something that went on for a minute worth of fusion 
energy? No.
    Dr. Van Dam. Well, national security applications, but they 
don't last that long.
    Mr. Rohrabacher. I mean--okay. Well, let us note that we've 
had very little physical evidence that is actually happening. 
We've got a lot of computer models here, and let me just note 
that I have seen--I've been here for a while. I actually--a lot 
of computer models that didn't work, and is it possible that we 
will get to the end of this project and it won't work?
    Dr. Van Dam. I sincerely hope not, and the best--
    Mr. Rohrabacher. That's not--no, no, no, is it possible 
that it won't work?
    Dr. Van Dam. The best projections from experiments that we 
have done over the past decades and our experience, the 
database, the computer modeling, and the new technology that we 
have, we think it will definitely work.
    Mr. Rohrabacher. We think, we think, we think. Okay. Let me 
just note this, that I would love to believe in the dream of 
fusion energy. I'd love to believe that. And it's very--and 
it's possible from what I've heard people say. It's possible we 
will get there. But we know that with the expenditure of the 
kind of money that we've spent on fusion energy, we could have 
developed fission energy alternatives that are for sure not 
just computer models but are for sure. And we have nobody--when 
you're interviewed about those model saying well, I think--no, 
they are very sure General Atomics, for example, has come up 
with a number of alternatives that they know they can complete.
    And I would suggest that with the limited amount of money 
that we have that we should be going for those things that we 
know we can actually do when it comes to the nuclear 
production--nuclear energy production of electricity. And this 
project has been going a number of years. We're spending 
billions of dollars, and we still do not know for sure whether 
or not there will be the type of ignition that we keep spending 
money on.
    Let me just note that we do have byproducts that I--let me 
tip my hat to General Atomics and others involved in this 
project. Mr. Chairman, there are byproducts that we have had 
from this research that have permitted the development of new 
materials and things such as that that may in the end turn out 
to be worth the investment without fusion. But in terms of 
actually producing energy, I think the American people deserve 
us to go for a for-sure outcome of electricity that we could 
spend the same amount of money on rather than something that 
could work because the computer models tell us so.
    And, Dr. Bigot, go right ahead. I know you're anxious to 
refute that or say something good about it. Please use my time 
to do that.
    Dr. Bigot. If I may just a second--
    Mr. Rohrabacher. Yes.
    Dr. Bigot. --from my point of view we have achieved what 
the computing modeling has been able to achieve, which means 
the JET we knew, it could not deliver more than 70 percent of 
the fusion power it received.
    Chairman Weber. Was that 70 or 17?
    Dr. Bigot. Seventy, seventy, 7-0, you see? Because of the 
size, is it not possible to have a net fusion power, but we had 
fusion power but not in the outcome. It's why with ITER we need 
a larger tokamak. We need a larger vacuum vessel. And the 
expectation is to have 10 times the fusion power that we will 
feed in with the heating system, 500 megawatt of fusion power.
    So everybody in this audience has to understand there is a 
minimum size. If you want to get, okay, fusion power, you need 
to have sufficient number of fusion event per unit time in 
order to deliver. So my understanding is, so far, the computer 
modeling has done very well and is why from my point of view I 
am confident that if we are able to assemble properly all the 
components making this ITER facility, we will deliver.
    Mr. Rohrabacher. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Weber. Now, if that hadn't confused you, 
Congressman, he can keep talking.
    Mr. Rohrabacher. Yes.
    Chairman Weber. I think what he's saying is that we're 
making progress, and so I'm glad that he's here and explaining 
it to us.
    The gentleman yields back. I appreciate that.
    Mr. McNerney, you're recognized for five minutes.
    Mr. McNerney. Well, I thank the Chairman. I thank the 
panel. I have to say I've been an enthusiast for fusion energy 
since college, since graduate school. I worked with Los Alamos 
labs at the time on inertial fusion. But we have a lot of 
progress, and I really truly believe that humanity is going to 
depend on fusion power for the long run. I mean, I don't see 
any other energy source that's going to really supply our human 
race with enough energy in the long-term future than fusion. So 
I'm going to continue to support the progress.
    Dr. Van Dam, you said that the United States is the leader 
in the computer modeling of fusion. What gives us the ability 
to be the leader? Is it the computer power that we have or is 
it the computer scientists? What is it that gives us that 
leadership?
    Dr. Van Dam. Yes, a couple of things. We have very advanced 
leadership class computing facilities: Oak Ridge and Argonne. 
We have a national energy research computer center out in 
California, which, when it started, actually was a magnetic 
fusion energy computer center and then it broadened into the 
entire Office of Science. We have the SciDAC, the Scientific 
Discovery through Computing program, which brings together the 
subject matter experts in physics and science with applied 
mathematicians and computer scientists. And this is very 
powerful. I've seen results of computer simulations gone from 
half the time required to do them just because the 
mathematicians and C.S. people have been involved.
    Mr. McNerney. So is our leadership being challenged by the 
supercomputers that they're building in China now or other--or 
is it just the major infrastructure that we have that allows us 
to maintain that leadership?
    Dr. Van Dam. Other countries do have very powerful 
computers. You mentioned China. We are trying to make up for it 
with intelligence and the way we use them, but yes, we do need 
to move on. Exascale is a very big priority in the 
Administration, and even after that, quantum information 
science.
    Mr. McNerney. Okay, thank you. Dr. Wade, you mentioned that 
there needs to be a comprehensive plan for fusion. Is there an 
outline for such a plan that we can consider or are we--I mean, 
as my colleague Bill Foster said, it's like fractal. The closer 
you look at it, the more sort of different approaches there 
are. How can we get our hands around this thing?
    Dr. Wade. Well, first off, let me just say that when I 
speak of comprehensive strategic plan, I'm talking about 
getting to fusion development, fusion energy, not just the next 
steps in what fusion energy is----
    Mr. McNerney. Right.
    Dr. Wade. --and so we have to have a goal and we have to 
have an objective for the United States of what that is, on 
what time frame, so I think we need to establish that.
    I think there are--is the framework of a strategic plan 
that has been encouraged through processes that the Fusion 
Energy Sciences division has organized through their advisory 
committee, but that look more closely at the near term than the 
long term, and I think we need to try to understand where we 
want to go in the long term to do that. So, for example, right 
now we're focused a lot on plasma physics, on--a lot on 
confinement.
    To ultimately deliver fusion, you have to get into 
materials, you have to get into technology for fuel, tritium 
fuel cycle handling, things like that. These are technologies 
that are not just off-the-shelf things. They're not going to be 
developed in another area. They have to be developed within the 
fusion context. And so these are things we should be looking at 
and trying to figure out where we need to go to be the leaders 
in that.
    So I think there's a framework in place to start from the 
plasma physics side and the burning plasmas that will get an 
ITER but we also need to fold into that what technologies we 
need to develop in the future and start that work now rather 
than later because if we start later, we're just going to make 
this a serial process that takes for a--a very long time to do.
    Mr. McNerney. Okay. Well, we're going to depend on you to 
point us in the direction of a plan so that we can at least get 
our hands around that.
    Dr. Wade. Yes.
    Mr. McNerney. Dr. Herrmann, welcome to my little section of 
the world here today. I appreciate--I've been to your facility 
many times. I appreciate what all is involved, and I understand 
that your real mission is the stockpile maintenance and so on, 
but you have such a world-class facility. How can we more 
expand that facility to use in terms of developing fusion 
power? I know that NNSA is very protective of your facility. 
How can we expand that a little bit?
    Dr. Herrmann. Thanks for the question. So going back to the 
very original documents that--the key decisions that led to the 
creation of the NIF, it was recognized that inertial fusion 
energy was one possible application. This was all when the 
Department was the Department of Energy before NNSA was 
created. And in those documents it says that some fraction of 
the time on the facility would be open to the scientific 
community, and so we do open up about eight percent of NIF's 
time to the outside academic community. And that has allowed us 
to do world-leading science and attract future stockpile 
stewards and collaborate with scientists, great scientists at 
academic institutions around the United States.
    Because there currently isn't really a funding path for 
researchers who want to do IFE, we don't really get proposals 
in the area of IFE into that open call for time on NIF, and so 
I think it's kind of a chicken-and-egg thing. It's hard to get 
the researchers to put in proposals because they don't have a 
path to get research funding, so if there was such a path, I 
think that would be a way that some of that time could be used 
for fusion energy research.
    Mr. McNerney. Thank you again. I thank the panelists. I'm 
going to have some questions for the record since I'm out of 
time here. I'll submit those later.
    Chairman Weber. I thank the gentleman from California. The 
gentleman from Oklahoma is now recognized.
    Mr. Lucas. Thank you, Mr. Chairman. And thank you to the 
panel for being here today. We have kind of drifted from the 
specifics to the general and back and forth in this 
conversation, so first let me turn to Dr. Bigot. Those are most 
impressive pictures compared to the last time several Members 
of the Committee were onsite at ITER, the progress that's been 
made. You said in your written testimony--you used the phrase 
in referencing ITER's magnitude and complexity, quote, ``No 
country, not even the most advanced, could have done this 
alone,'' unquote. Could you expand for a moment on the 
magnitude of the overall cost projected for the whole project 
and the number of disciplines and the number of engineering and 
scientific people required to get to this point?
    Dr. Bigot. Thank you very much for this question. Yes, 
clearly, with tokamak, which is the largest we have ever 
conceived to build in the world, is utilizing many 
technologies. First, clearly the magnets, we have to develop 
the superconducting materials, nearly 2,800 tons of this 
material has to be developed and with high standards. Vacuum; 
we need to make a vacuum in a chamber which is nearly 1,000 
cubic meters, and we will deal with hydrogen, as you know, 
which fuels a lot, so we need to develop some specific pumps 
for that. And the United States is performing quite well in 
this matter. It is another matter we will need to have the 
United States delivering on time. There are also heat 
exchanging requirements. We are producing 500 megawatts, and in 
a per square meter, we will be able to collect 20 megawatts per 
square meter.
    So all these technologies are so large and the size of the 
material is so important that we don't believe a single country 
could develop an industry in order to deliver on a reasonable 
time. We will deliver nearly the full construction in 25 years, 
and we have the seven largest countries in the world together, 
and so you could imagine that even a single one could take 
maybe four or five times longer, so it would not be expected.
    Just to give you an example, one sector of the large 
vacuums, which is manufactured right now in Korea, it takes 
four years for the most advanced companies in the world in 
order to be able to manufacture these sectors. Why? Because we 
need a very high precision. We need also full alignment because 
it's a nuclear vessel, so no leaks at all. Every welding has to 
be precisely controlled.
    So my understanding is very clear. If we are not working 
all together, bringing the added value of our expertise and 
competence worldwide, it will be very challenging to do it.
    Mr. Lucas. Thank you, Doctor.
    Dr. Van Dam, various comments have been made about the 
different theoretics and the different perspectives, the 
different ways of coming about trying to address fusion. Could 
you touch for a moment on what varieties of fusion research 
programs are being pursued in other countries? We've listened 
to discussions about the United States. We know what ITER--the 
consortium we're a part of, but what's the rest of the world up 
to?
    Dr. Van Dam. Yes. The United States I think is a world 
leader.
    Mr. Lucas. Absolutely.
    Dr. Van Dam. No doubt about that. The Europeans have a very 
vigorous program in fusion energy and have had for some time, 
and we collaborate with them, for example, on the Joint 
European Torus, which is in the U.K. and it's being impacted by 
Brexit. We work on the W7-X stellarator, which is the world's 
largest in Germany. We work on the tokamak in Germany--another 
tokamak in Germany. We work with all of the countries in 
collaboration.
    Japan has a very vigorous program, and I myself have been 
going there for almost 40 years to do research. China has a 
very strong program right now. They're spending a lot of money 
in fusion energy. They're very serious about it, South Korea as 
well, India likewise. The Russian Federation used to 
historically have a very strong program, and we competed with 
them, and it is still strong. They have a lot of legacy work, 
but a lot of those scientists have migrated to the United 
States.
    Mr. Lucas. One last question, Dr. Van Dam, whether you are 
the optimist and you believe when the technology breakthrough 
comes or you're a pessimist and you believe if the technology 
breakthrough comes, describe to us where will the United States 
be if we don't participate, if we're not a part of these 
efforts, if we're not doing the research? Where will we be if 
or when--I would hope when this happens--describe for us just a 
moment what the world would be like for those who are not a 
part of this energy source?
    Dr. Van Dam. The ITER project?
    Mr. Lucas. ITER or the concepts of fusion in general. If we 
get to the point where we have successful fusion power 
generation but we've not participated, we're not a part of any 
of the endeavors, we've decided we don't want to spend any 
money, describe for a moment what it will be like to be left 
out of the next generation of energy.
    Dr. Van Dam. Well, fusion and also fission provide baseload 
energy, which is something that renewables don't quite provide 
and they're also load-following types of energy, which is very 
important for large industry and just our standard of living. 
If we are not in the ITER project, it may still go forward with 
the other six members. You know, we would have to decide what 
our program--we still have the same priorities in terms of 
burning plasma science but how they would be implemented. And 
for the rest of the answer, I would like a crystal ball.
    Mr. Lucas. Bottom line is of course if success comes and 
we're not a part of it, then we'll become a second-class 
economic power because we will not be able to participate in 
the current technology at that moment of cost-effective energy 
for all purposes. Thank you, Doctor.
    I yield back, Mr. Chairman.
    Chairman Weber. I thank the gentleman.
    The gentleman from New York, Mr. Tonko, is recognized for 
five minutes.
    Mr. Tonko. Thank you, Mr. Chairman, and thank you to our 
witnesses for joining us on a very interesting and very 
important topic.
    As the only member representing the State of New York on 
the Science Committee, I want to address a disturbing budget 
cut that was brought to my attention. The OMEGA Laser Facility 
at the University of Rochester's Laboratory for Laser 
Energetics has been targeted for severe cuts and a three-year 
ramp-down in the fiscal year 2019 budget request. I along with 
many of my colleagues strongly believe that OMEGA deserves 
continued support and that eliminating the facility would be 
detrimental to national security and the continuity of our 
nuclear program.
    OMEGA provides scientific and technical support for the 400 
users from the 55 universities and over 35 centers and national 
laboratories that use OMEGA annually to conduct more than 2,100 
experiments in cutting-edge research. Currently, demand for 
these facilities exceeds available time by a factor of two. 
LLE's benefits go well beyond the more than 2,100 experiments 
OMEGA conducts annually in support of the ICF program. LLE 
employs more than 360 scientists, engineers, and technicians 
and support staff. LLE draws 400 scientists from around the 
world to western New York every year to carry out fundamental 
research, training, and education. LLE provides a strong 
stimulus to New York's economy as a source of new startup 
companies and a driver of the region's optics, imaging, and 
photonics sector. The LLE's OMEGA Laser Facility is a vital 
contributor to national security and an invaluable source of 
scientific education and leadership.
    The LLE is the most cost-effective facility in the science-
based Stockpile Stewardship Program, performing 80 percent of 
all the targets shot--used in the national inertial confinement 
fusion, or the ICF, and high-energy density physics programs 
with only 13 percent of NNSA's ICF budget. LLE is 
internationally recognized for its groundbreaking research in 
high-energy density physics and high-powered lasers. The OMEGA 
Laser Facility indeed is the major DOE facility that trains 
graduate students serving as a critical pipeline for future 
talent that is critically important to our national and 
economic security.
    So I would ask any or all of our witnesses, have you heard 
any explanation for the cuts to the OMEGA Laser Facility at the 
University of Rochester's Laboratory for Laser Energetics? 
Anyone?
    Dr. Herrmann. The Department of Energy, the NNSA budget 
justification outlined that the resources were shifted to 
higher-priority activities, but we haven't gotten any more 
details than that in our conversations with the Department.
    Mr. Tonko. So again, to each of our panelists if you 
choose, what impact with these cuts have on the field, on our 
national security, and certainly on the workforce?
    Dr. Herrmann. Well, at Lawrence Livermore we work very 
closely with the University of Rochester and the Laboratory for 
Laser Energetics. OMEGA serves as an important staging ground 
for performing experiments before they come to NIF to get the 
data we need for the stewardship program. We work closely with 
scientists and engineers at the University of Rochester to 
develop diagnostics for the National Ignition Facility and to 
move the science forward, and they really play an important 
role in the entire national community, so I think would be a 
very big loss if the OMEGA Laser Facility were shut down.
    They're also an important training ground for students who 
go into this field and can train many future stockpile 
stewards. Our laboratory has hired many of the scientists who 
studied or did experiments at the University of Rochester, so I 
think it would be a big loss to the national program.
    Mr. Tonko. And I would think that human infrastructure 
component is a very critical one.
    Anyone else from the panel that wants to address the cuts?
    So, Dr. Herrmann and Dr. Wade, there have been some notable 
efforts made to our progress from those working on innovative 
fusion energy concepts, and recently the Tri Alpha was featured 
in a cover story of TIME Magazine for achieving a major 
milestone while other smaller companies are making progress in 
addressing other critical technical challenges. If these 
innovative companies and approaches cannot find funding here in 
the United States, just where will they go do you imagine?
    Dr. Wade. Well, I--to answer your--to give you some 
background, these companies like Tri Alpha have made tremendous 
progress in looking at the areas that they're looking at, but 
as Mr. Weber, the Chairman, said at the beginning of this, the 
goal is to get high density, high temperature for long periods 
of times, and these confinement concepts are well behind in 
terms of the tokamak, in terms of their maturity. They're 
making tremendous progress, and they may someday be able to get 
to tokamak levels of performance.
    The--in terms of investment by other countries, I would 
anticipate that China would be involved. China has almost like 
an Apollo program in almost every energy sector, and so they're 
launching initiatives in a wide range of areas.
    Worldwide, if you looked at the rest of the world, the 
fusion effort is primarily focused on the tokamak and bringing 
that into full maturity, bringing other lines that are at 
second level, second-tier along at a slower pace, so I don't 
anticipate a large investment worldwide. Probably in China 
there'll be some effort, and there may be sovereign countries--
sovereign funds that invest in small startups to give them seed 
money to see if they can actually get to the point of making 
one of these concepts a reality.
    Mr. Tonko. Thank you. And, Mr. Chair, I yield back.
    Chairman Weber. The gentleman yields back.
    The gentleman from Florida is recognized.
    Mr. Dunn. Thank you very much, Mr. Chairman.
    This is an exciting and interesting topic. Let's jump in. 
Dr. Wade, you stress U.S. leadership in fusion research is 
threatened by large investments by other nations. What level of 
investment is required for us to compete here? I'm looking for 
a number.
    Dr. Wade. Well, that's a very good question. I think that 
the level of investment we're making right now is not 
sufficient. I think that especially when you look at the 
domestic program and the level of funding that it's at, it's 
barely at a stage where we can sustain our leadership, much 
less exert leadership. If I were recommending a number, I would 
recommend a factor to two or three increase in fusion funding 
in the United States from the point of view that there are 
multiple initiatives that we are unable to fund that I think 
would have benefit not just in providing us an alternative to 
this mainline approach but to get more people involved in the 
fusion endeavor----
    Mr. Dunn. Sure.
    Dr. Wade. --which I think is very important.
    Mr. Dunn. And you mentioned the in-kind donations, which I 
think are terrific because we keep some talent here and grow 
our knowledge base.
    So you've been involved in both the DIII-D project and the 
ITER project. What's the major difference between those two?
    Dr. Wade. The major difference is--well, ITER is about four 
times the size of DIII-D, so it's a much larger facility. DIII-
D is a much more flexible facility in the type of research it 
can carry out. It's small. It has many capabilities that allow 
it to--the researchers to manipulate the plasma in a way that--
--
    Mr. Dunn. But the physics are kind of all the same?
    Dr. Wade. The physics is exactly the same; it's just at 
larger scale.
    Mr. Dunn. Okay. Can you share some of the spinoff 
applications that have come out of this program?
    Dr. Wade. There have been a huge number of spinoffs in a 
variety of areas: microwaves, MRIs. One of the best ones I like 
to use is if you're familiar with the recent deployment of the 
EMALS system, Electromagnetic Advanced Launch System, on the 
Gerald Ford aircraft carrier. This has replaced----
    Mr. Dunn. Oh, yes.
    Dr. Wade. --all the catapults with electromagnetic systems 
so that they can reduce the footprint of the steam required to 
do the steam catapults, and this has allowed the--and also much 
more controlled takeoff, less stress on the plane, less stress 
on the pilots, and so these are spinoffs that not only have--
we're doing this in the--in basic technologies but in very 
applied defense technologies also.
    Mr. Dunn. Do you interact with the MagLab in Tallahassee, 
FSU?
    Dr. Wade. We have interacted with them not--we do not have 
a strong collaboration, but we have had discussions with them.
    Mr. Dunn. So one thing you said earlier impressed me. You 
seem very, very confident that the ITER facility is going to be 
able to achieve the sustained fusion and actually even it 
sounded like you were saying--and it will be commercially 
viable. Can you share your optimism with us?
    Dr. Wade. Yes, I believe ITER is--I have very high 
confidence ITER will succeed. I have worked in this field a 
long time, and I have watched the progression of our 
understanding, and I believe our understanding is sufficient to 
have high confidence if technically ITER--with its systems can 
deliver the technical capability, the physics will be there to 
deliver the power that is projected. And I think that that 
launches us into a new era in fusion development. I think that 
countries, nations, people worldwide will recognize that this 
is a real energy source for the future and we can launch 
aggressively into that. And if the United States isn't there at 
the table ready to do something, we're going to be left behind 
by other nations in delivering that technology for the world.
    Mr. Dunn. Thank you very much. So, Dr. Bigot, so it 
certainly sounds like he has a lot of faith in you. Do you 
share his optimism?
    Dr. Bigot. Yes, I share. As I say to you, we have the 
background of several decades of works on smaller devices and 
smaller facilities, which demonstrate that the physics is 
robust, okay, the modeling is robust, and my expectation is if 
we are able to assemble this larger-scale facility, we will 
deliver.
    Mr. Dunn. Well, Godspeed to all of you. Thank you very much 
for being here.
    Mr. Chairman, I yield back.
    Chairman Weber. The gentleman from Illinois is recognized 
for five minutes.
    Mr. Foster. Thank you, Mr. Chairman. And I guess I'd like 
to start out by seconding Representative Tonko's, I guess, 
unhappiness with the zeroing out of LLE. You know, I think this 
will be tremendously damaging, including to NIF. I mean, you're 
absolutely right. I mean, it sort of serves as something 
analogous to what a test meme used to serve for for high-energy 
physics where I worked for decades that you actually need when 
you have a bright idea for a new experiment, you need a low-
cost way of testing it out.
    In addition, when you look at the way forward, one of the 
most promising ways to actually get, you know, to ignition is 
to switch over to direct drive and--which means you then have 
to then compress in all directions simultaneously, which is 
something that can be done today, albeit at a lower energy at 
Rochester. And so, you know, the wisdom of cutting this is 
really something I don't appreciate.
    The other thing is, you know, we're seeing it more and 
more, this statement that, well, there just isn't enough money. 
And so I'd like to try to put that in context. Since the 
economic recovery started, house--the net worth of Americans 
has gone up by $45 trillion. Well, what we're debating here 
largely, the investment--the U.S. investment in ITER will maybe 
be $4.5 billion, okay? And so we're talking about spending, you 
know, 1/10,000 of the increase in, you know, the U.S. wealth 
that's happened on something that can provide energy in 
principle for millennia.
    And so, you know, there's I think a pretty strong case to 
be made that, you know, especially now that the economy has 
recovered, we are actually--this is going to be money well 
spent. And I--but I--and I do appreciate the bipartisan 
enthusiasm we've seen from--almost bipartisan enthusiasm for 
fusion generally, though I would also like to point out that 
for those of my colleagues that don't appreciate the difference 
between fission and fusion, then I'd be interested in knowing 
whether they're volunteering their district to be the storage 
location for all of the fission end-products at the end of the 
energy production.
    All right. Now, a few specific questions. You know, one of 
the things that I've always found useful to look at in 
understanding whether a project is on track is you look at the 
contingency reserve, which you highlighted in your previous 
testimony, that you've established, you know, a project 
reserve, which I guess in the United States we talk--is 
contingency. And so I always used to track the amount of 
contingency remaining versus the fraction of project completed 
and to see if this extrapolates above or below zero to see if 
your project's heading for trouble. And is that something that 
you have over the last, I guess, three years been tracking and 
what's--what would that graph look like?
    Dr. Bigot. Thank you for this important question. There is 
contingency, for example, in the U.S. program. For providing 
the in-kind U.S. contribution, the United States, according to 
their regulation, has decided to put some contingencies, so 
contingencies are in-kind for the production. Some of the 
countries behave differently, but this is on the responsibility 
of the ITER members.
    Within the ITER Organization, when I came in, I was 
requested to provide the best technically achievable schedule 
at the lowest cost without contingency. Since that time, we 
have developed risk management, and I request all my colleagues 
on the amount of money--that we call the ``overall project 
costs'' for the ITER Organization--to make an eight percent 
saving every year, in such a way that I am building up some 
contingencies in order to phase in the risk.
    Mr. Foster. Now, is this contingency fungible across 
national boundaries?
    Dr. Bigot. Yes.
    Mr. Foster. Like if country X gets in trouble on their 
project, can the contingency from savings from country Y be 
used to bail them out or is there----
    Dr. Bigot. No.
    Mr. Foster. --a firewall?
    Dr. Bigot. No, there is a firewall--
    Mr. Foster. Oh.
    Dr. Bigot. --exactly. For the in-kind contribution, there 
is a firewall. Each ITER member is responsible to deliver the 
in-kind contribution. But for the ITER Organization, the cost 
of the assembly, for example, the commissioning and all these 
things it is according to the share the United States is nine 
percent, Europe 45 percent, all the non-European countries is 
also 9 percent.
    And I would want to point out something very clearly. For 
the United States participating in the ITER project costs nine 
percent of the value of the project, but they will have access 
to 100 percent of this facility, so I guess it's clearly a good 
investment.
    Mr. Foster. And sort of the benefit of scientific 
collaboration, since science began, that if you collaborate, 
you learn more. So let's see.
    Dr. Van Dam, you mentioned that there was an ongoing 
administrative--the Administration was going to review the 
nuclear program generally and science specifically, and you 
were involved in, you know, the budget pass-back and all of the 
things which came to the conclusion, for example, that you had 
to shut down LLE and preserve DIII-D and all these sort of 
Sophie's Choice decisions that you have to make during the 
budget decisions. And could you describe--you know, obviously, 
you can never discuss those in public. That's--for reasons we 
understand, but could you describe the list of scientists above 
you in the org chart that are going to be involved in those 
sort of decisions?
    Dr. Van Dam. Well, yes. Directly above me is the Deputy 
Director for Science Dr. Steve Binkley. You probably know him.
    Mr. Foster. Sure, I know him well. Yes.
    Dr. Van Dam. And above him should be the Director of the 
Office of Science, which at the moment is still vacant.
    Mr. Foster. All right. And if you continue up----
    Dr. Van Dam. Yes.
    Mr. Foster. --the org chart, where do you encounter Ph.D. 
scientists above that in the org chart making these decisions?
    Dr. Van Dam. Well, Dr. Binkley is certainly a Ph.D. 
scientist.
    Mr. Foster. Right.
    Dr. Van Dam. Then, above him would be Mr. Paul Dabbar, who 
is the Under Secretary for Science, then the Deputy Secretary 
and the Secretary himself.
    Mr. Foster. All right. So you've just given us the complete 
list of, say, Ph.D. scientists who are going to be involved in 
making these crucial decisions about which facilities can 
survive in different budget scenarios, for example?
    Dr. Van Dam. Well, Dr. Binkley has a Ph.D.
    Mr. Foster. I understand. He's also a permanent employee 
of----
    Dr. Van Dam. Yes--
    Mr. Foster. --not a----
    Dr. Van Dam. --not a political--
    Mr. Foster. Yes, because I'm personally very nervous that 
we're making these really important decisions with, you know, 
frankly no one home, you know, with a--with science credentials 
in making these decisions, and there are real risks to the 
program if that proceeds.
    Anyway, I think I've gone past my time.
    Dr. Van Dam. May I briefly defend Paul Dabbar, Under 
Secretary of Energy, who worked in technology for----
    Chairman Weber. Briefly.
    Dr. Van Dam. I'll finish.
    Chairman Weber. I thank the gentleman.
    The gentleman from Florida is recognized for five minutes.
    Mr. Webster. Thank you, Mr. Chairman.
    Dr. Van Dam, when I was in college 40-some years ago in 
electrical engineering, they said that we're about 30 years 
away from actually producing electricity through fusion. And 
now I hear that we're still 30 years away. I'm wondering, has 
there been any--let's say in the last, I don't know, 10 or 15 
years, has there been any progress or notable progress towards 
the goal?
    Dr. Van Dam. Well, I was also a student 40 years ago and I 
heard the same thing. I think people did not realize how 
challenging this endeavor is. It is a very complex endeavor. 
It's often called a grand challenge problem. I think we have 
made tremendous progress, and the National Academies study in 
fact will be documenting that when they do their final report 
at the end of the year. We've made great progress in control of 
plasmas just like with airplanes, in high-resolution 
diagnostics, high-performance computing, and just the--and also 
the technology that goes along with it, the heating technology, 
the magnet technology, and so forth. We have a recent FESAC 
report on transformative enabling technologies that will enable 
us even to accelerate faster.
    Mr. Webster. So--okay, so it seems like back then, there 
were these goals that were necessary and things that needed to 
happen to sustain the reaction. And I'm wondering is there one 
thing or two things that we need to do over the next, let's 
say, ten years from now in order to say, okay, we've made real 
progress? Could you name those?
    Dr. Van Dam. That's a great question, and I'm sure my 
neighbors would be happy to answer as well. I think we need to 
stay in the ITER project, and the computing is a very, very big 
priority for us and for the Administration because it lets us 
take bigger steps forward with confidence having codes with 
predictive capability. The experiments I think are extremely 
valuable. We have these very high-performance experiments, 100-
million-degree plasmas, and we're understanding them at a very 
precise level.
    Mr. Webster. What was the temperature?
    Dr. Van Dam. Like 100 million degrees. It's quite 
impressive. And we have these diagnostics that can actually see 
exactly what's going on, coupled with the codes that actually 
can compute both postdictive and predictive and interpret 
what's going on. And material studies, we need that 
desperately.
    Mr. Webster. Is that where we're putting the money?
    Dr. Van Dam. In the 2019 budget we've proposed this linear 
diverter facility at Oak Ridge. It's called MPEX, Material 
Plasma Exposure facility----
    Mr. Webster. At our----
    Dr. Van Dam. --Oak Ridge National Laboratory.
    Mr. Webster. Yes.
    Dr. Van Dam. That's one thing we're doing.
    Mr. Webster. Okay. Thank you very much. I yield back.
    Chairman Weber. All right. And----
    Mr. Foster. Mr. Chairman----
    Chairman Weber. Yes, sir?
    Mr. Foster. --would it be all right if I had an additional 
question?
    Chairman Weber. Well, we have a meeting right following 
this----
    Mr. Foster. Okay.
    Chairman Weber. --so I would encourage you to get with 
maybe Dr. Van Dam over the Fusion Advisory Science Committee, 
which offers--has Ph.D.'s and offers that advice, but I do need 
to close it out.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The record will remain open for 
two weeks for additional comments and written questions from 
the Members. This hearing is adjourned.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
